The Department of Health and Human Services

                    And

          The Department of Justice

Health Care Fraud and Abuse Control Program

         Annual Report For FY 2005





                AUGUST 2006
                          TABLE OF CONTENTS


                                                                       Page

Executive Summary                                                      1

Introduction                                                           2

Monetary Results                                                       4

Program Accomplishments                                                6

       Department of Health and Human Services
             Office of Inspector General                               19
             Centers for Medicare and Medicaid Services                25
             Office of the General Counsel                             27
             Administration on Aging                                   29
             Office of the National Coordinator
                for Health Information Technology                      30
             Health Resources and Services Administration              30

       Department of Justice
             United States Attorneys                                   32
             Civil Division                                            33
             Criminal Division                                         35
             Civil Rights Division                                     37

       Appendix: Federal Bureau of Investigation - Mandatory Funding   39

Glossary of Terms                                                      41




                                     GENERAL NOTE

                               All years are fiscal years unless

                                 otherwise noted in the text.

                           EXECUTIVE SUMMARY

The Health Insurance Portability and Accountability Act of 1996 (HIPAA) established a national
Health Care Fraud and Abuse Control Program (HCFAC or the Program), under the joint
direction of the Attorney General and the Secretary of the Department of Health and Human
Services (HHS)1, acting through the Department’s Inspector General (HHS/OIG), designed to
coordinate federal, state and local law enforcement activities with respect to health care fraud
and abuse. In its ninth year of operation, the Program’s continued success again confirms the
soundness of a collaborative approach to identify and prosecute the most egregious instances of
health care fraud, to prevent future fraud or abuse, and to protect program beneficiaries.

Monetary Results

During FY 2005, the Federal Government won or negotiated approximately $1.47 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Fund received transfers of nearly $1.55 billion
during this period as a result of these efforts, as well as those of preceding years, in addition to
$63.64 million in federal Medicaid money similarly transferred to the Centers for Medicare and
Medicaid Services (CMS) as a result of these efforts. The HCFAC account has returned over
$8.85 billion to the Medicare Trust Fund since the inception of the program in 1997.

Enforcement Actions

In FY 2005, U.S. Attorneys' Offices opened 935 new criminal health care fraud investigations
involving 1,597 potential defendants. Federal prosecutors had 1,689 health care fraud criminal
investigations pending, involving 2,670 potential defendants, and filed criminal charges in 382
cases involving 652 defendants. A total of 523 defendants were convicted for health care
fraud-related crimes during the year. Also in FY 2005, the Department of Justice (DOJ) opened
778 new civil health care fraud investigations, and had 1,334 civil health care fraud
investigations pending at the end of the fiscal year. DOJ filed complaints or intervened in 266
civil health care cases in FY 2005.




       1
        Hereafter, referred to as the Secretary.

                                                   1
                                 INTRODUCTION

                         ANNUAL REPORT OF 

             THE ATTORNEY GENERAL AND THE SECRETARY

                DETAILING EXPENDITURES AND REVENUES

      UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM

                        FOR FISCAL YEAR 2005


                                      As Required by 

                         Section 1817(k)(5) of the Social Security Act


                               STATUTORY BACKGROUND



The Social Security Act Section 1128C(a), as established by the Health Insurance Portability and
Accountability Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse in health care,
including both public and private health plans.

The Act requires that an amount equaling recoveries from health care investigations -- including
criminal fines, forfeitures, civil settlements and judgments, and administrative penalties, but
excluding restitution, compensation to the victim agency, and relators’ shares -- be deposited in
the Medicare Trust Fund.2 All funds deposited in the Trust Fund as a result of the Act are
available for the operations of the Trust Fund.

The Act appropriates monies from the Medicare Trust Fund to an expenditure account, called the
Health Care Fraud and Abuse Control Account (the Account), in amounts that the Secretary and
Attorney General jointly certify as necessary to finance anti-fraud activities. The maximum
amounts available for certification are specified in the Act. Certain of these sums are to be used
only for activities of the HHS/OIG, with respect to Medicare and Medicaid programs. In FY
2005, the Secretary and the Attorney General certified $240.558 million for appropriation to the
Account. A detailed breakdown of the allocation of these funds is set forth later in this report.
These resources generally supplement the direct appropriations of HHS and DOJ that are
devoted to health care fraud enforcement. These funds provide approximately 80% of HHS/OIG
funding. (Separately, the Federal Bureau of Investigation (FBI) received $114 million from
HIPAA which is discussed in the Appendix.).




       2
       Also known as the Hospital Insurance (HI) Trust Fund. All further references to the
Medicare Trust Fund refer to the HI Trust Fund.
                                               2
Under the joint direction of the Attorney General and the Secretary, the Program’s goals are:

(1)	   to coordinate federal, state and local law enforcement efforts relating to health care fraud
       and abuse with respect to health plans;

(2)	   to conduct investigations, audits, inspections, and evaluations relating to the delivery of
       and payment for health care in the United States;

(3)	   to facilitate enforcement of all applicable remedies for such fraud;

(4)	   to provide guidance to the health care industry regarding fraudulent practices; and

(5)	   to establish a national data bank to receive and report final adverse actions against health
       care providers, and suppliers.

The Act requires the Attorney General and the Secretary to submit a joint annual report to the
Congress which identifies both:

(1)	   the amounts appropriated to the Trust Fund for the previous fiscal year under various
       categories and the source of such amounts; and

(2)	   the amounts appropriated from the Trust Fund for such year for use by the Attorney
       General and the Secretary and the justification for the expenditure of such amounts.

This annual report fulfills the above statutory requirements.




                                                 3

                                  MONETARY RESULTS

As required by the Act, HHS and DOJ must detail in this Annual Report the amounts deposited
and appropriated to the Medicare Trust Fund, and the source of such deposits. In FY 2005,
$1.71 billion was deposited with the Department of the Treasury and the Centers for Medicare
and Medicaid Services (CMS), transferred to other federal agencies administering health care
programs, or paid to private persons during the fiscal year. The following chart provides a
breakdown of the transfers/deposits:

                                  Total Transfers/Deposits by Recipient FY 2005

             Department of the Treasury
              HIPAA Deposits to the Medicare Trust Fund
                   Gifts and Bequests                                                        $30,863
                   Amount Equal to Criminal Fines                                       $347,896,377
                   Civil Monetary Penalties                                              $13,134,764
                   Asset Forfeiture *                                                             $0
                   Penalties and Multiple Damages                                       $350,763,305

                      Subtotal                                                          $711,825,310

             Centers for Medicare and Medicaid Services
              OIG Audit Disallowances - Recovered                                       $423,334,724
              Restitution/Compensatory Damages                                          $413,398,752

                      Subtotal                                                          $836,733,476

             Grand Total                                                              $1,548,558,785

             Restitution/Compensatory Damages to Federal Agencies
             HHS/OIG Cost of Audits, Investigations and Compliance
             Monitoring                                                                    $9,432,501
             Office of Personnel Management                                                $4,002,889
             TRICARE                                                                       $3,350,711
             Administration for Children and Families                                      $2,583,033
             National Institutes of Health                                                 $1,671,755
             Department of Labor                                                           $1,274,523
             Other Agencies                                                                $1,313,912

                      Subtotal                                                            $23,629,324


             Relators’ Payments**                                                       $136,756,946

                  TOTAL ***                                                           $1,708,945,056

*This includes only forfeitures under 18 U.S.C. § 1347, a Federal health care fraud offense that became effective on
August 21, 1996. Not included are forfeitures obtained in numerous health care fraud cases prosecuted under
Federal mail and wire fraud and other offenses.
**These are funds awarded to private persons who file suits on behalf of the Federal Government under the qui tam
provisions of the False Claims Act, 31 U.S.C. § 3730(b).
***Funds are also collected on behalf of state Medicaid programs and private insurance companies; these funds are
not represented here.

                                                         4
The above transfers include certain collections, or amounts equal to certain collections, required
by HIPAA to be deposited directly into the Medicare Trust Fund. These amounts include:

(1)	   Gifts and bequests made unconditionally to the Trust Fund, for the benefit of the Account
       or any activity financed through the Account;

(2)	   Criminal fines recovered in cases involving a Federal health care offense, including
       collections under section 24 (a) of Title 18, United States Code (relating to health care
       fraud);

(3)	   Civil monetary penalties in cases involving a Federal health care offense;

(4)	   Amounts resulting from the forfeiture of property by reason of a Federal health care
       offense, including collections under section 982(a)(6) of Title 18, United States Code;
       and

(5)	   Penalties and damages obtained and otherwise creditable to miscellaneous receipts of the
       general fund of the Treasury obtained under sections 3729 through 3733 of Title 31,
       United States Code (known as the False Claims Act, or FCA), in cases involving claims
       related to the provision of health care items and services (other than funds awarded to a
       relator, for restitution or otherwise authorized by law).




                                                5

                  PROGRAM ACCOMPLISHMENTS

EXPENDITURES

In the ninth year of operation, the Secretary and the Attorney General certified $240.558 million
as necessary for the Program. The following chart gives the allocation by recipient:

              FY 2005 ALLOCATION OF HCFAC APPROPRIATION
                            (Dollars in thousands)
                           Organization                             Allocation
      Department of Health and Human Services
       Office of Inspector General3                                       $160,000
       Office of the General Counsel                                         4,778
       Administration on Aging                                               3,128
       Centers for Medicare and Medicaid Services                           22,297
       Health Resources and Services Administration                            450
       Office of the National Coordinator for Health
            Information Technology (ONC)                                         490

      Subtotal                                                            $191,143
      Department of Justice
        United States Attorneys                                            $30,400
        Civil Division                                                      14,459
        Criminal Division                                                    1,580
        Civil Rights Division                                                1,976
        Nursing Home Initiative                                              1,000

      Subtotal                                                             $49,415


      Total                                                               $240,558




       3
         In addition, HHS/OIG obligated $1.71 million in funds received as "reimbursement for
the costs of conducting investigations and audits and for monitoring compliance plans" as
authorized by section 1128C(b) of the Social Security Act, 42 U.S.C. § 1320a-7c(b).
                                                6
ACCOMPLISHMENTS

Overall Recoveries

During this fiscal year, the Federal Government won or negotiated approximately $1.47 billion in
judgments and settlements, and it attained additional administrative impositions in health care
fraud cases and proceedings. The Medicare Trust Fund received transfers of nearly $1.55 billion
during this period as a result of these efforts, as well as those of preceding years, in addition to
$63.64 million in federal Medicaid money similarly transferred to CMS as a result of these
efforts. Note that some of the judgments, settlements, and administrative actions that occurred in
FY 2005 will result in transfers in future years, just as some of the transfers in FY 2005 are
attributable to actions from prior years.

In addition to these enforcement actions, numerous audits, evaluations and other coordinated
efforts yielded recoveries of overpaid funds, and prompted changes in Federal health care
programs that reduce vulnerability to fraud. In FY 2005 HHS collected more than $423 million
in HHS/OIG recommended recoveries.

Program Accomplishments

Working together, HHS/OIG, DOJ and their law enforcement partners have brought to successful
conclusion the investigation and prosecution of numerous health care fraud schemes. During FY
2005, the many significant HCFAC Program accomplishments included the following:

Pharmaceutical Fraud

'	     GlaxoSmithKline paid the United States $140 million to settle allegations of fraudulent
       drug pricing and marketing that resulted in the submission of inflated claims to Medicare,
       Medicaid, and other federally funded health care programs. The United States alleged that
       GlaxoSmithKline, one of the world’s largest pharmaceutical manufacturers, reported
       inflated prices for the drugs, Zofran and Kytril, knowing that those prices would be used
       by federal programs to set reimbursement rates. GlaxoSmithKline used the artificial
       spread between the reported, inflated prices and its customers’ significantly lower actual
       cost to purchase the drugs as a marketing tool. Zofran and Kytril are anti-emetic drugs
       used primarily to reduce the negative side effects of radiation and other cancer treatments.
       The settlement was the result of a qui tam suit filed by Ven-A-Care of Florida Keys, Inc.,
       a small home-infusion company, and its principals. In addition to the $140 million federal
       share of the recovery, GlaxoSmithKline paid $10 million to reimburse state Medicaid
       funds.


'	     AdvancePCS, in the pharmacy benefit management business, paid the United States
       $138.5 million to resolve allegations that AdvancePCS exacted kickbacks, disguised as
       administrative fees and sales and service agreements, from drug manufacturers in

                                                 7

      exchange for marketing their drugs to providers reimbursed by federally insured health
      programs; accepted kickbacks in the form of cash payments and rebates from drug
      manufacturers in exchange for marketing their drugs to providers reimbursed by federally
      insured health programs; and paid kickbacks to providers reimbursed by federally insured
      health programs to ensure that AdvancePCS was selected or retained as the pharmacy
      benefit manager for the health plans.

Pharmaceutical Distribution Fraud

'	    A pharmacist and former principal owner and president of King Drugs, Inc. in Kentucky
      pleaded guilty to illegally selling prescription drug samples to the public through King
      Drugs pharmacies after repackaging the samples. The pharmacist obtained the samples by
      taking them from various doctors and purchasing the samples from others and then led the
      public to believe that the drugs were properly obtained and dispensed as required by law.
      In resolving both criminal and civil actions with the United States, the defendant paid
      (jointly with the company) more than $10.5 million to the government, relinquished his
      pharmacy license, agreed to permanent exclusion from all federal health benefit programs,
      and will serve a sentence involving home confinement and 48 months of probation.

'	    An individual based in Las Vegas, Nevada who sold prescription drugs and controlled
      substances over the internet was convicted by a jury of 17 felony counts and sentenced to
      120 months in prison. The defendant shipped the drugs to his customers in the United
      States through a German business he owned called CFF Pharma Consult. One of the
      drugs the defendant sold online was Flunitrazepam, commonly known as Rohypnol, or the
      “date rape drug.” The drugs the defendant sold were shipped from Germany to the United
      States through the use of forged and fraudulent documents designed to deceive employees
      of the United States Customs Service and the Food and Drug Administration (FDA). In
      addition to the ten-year prison sentence, the court ordered forfeiture of the defendant’s
      home valued at $285,000 because it was used to facilitate the drug offenses. A co
      defendant also pleaded guilty to conspiracy to defraud and was sentenced to 37 months in
      prison.

'	    Convictions resulted for nine individuals in the Miami, Florida area who engaged in a
      multi-million dollar Medicare fraud scheme regarding local medical clinics that were
      fraudulently billing for expensive medications used to treat conditions common among
      persons with Human Immunodeficiency Virus (HIV) and persons undergoing cancer
      treatment. Several doctors and their co-conspirators used the Bolanos Institute and
      Lefebvre Institute to fraudulently bill Medicare for intravenous infusion treatments
      involving medications, Neupogen and Procrit, that were either not provided to patients or
      were not medically necessary. The doctors falsified patient medical diagnoses and
      documentation in order to help conceal the fact that the patients were not receiving the
      Neupogen and Procrit treatments that were billed to Medicare.

                                              8

'	    An owner of numerous internet pharmacy websites was sentenced in the Eastern District
      of Virginia to 33 months in prison for illegally distributing controlled substance weight
      loss drugs and other prescription drugs over the internet to consumers. The court ordered
      forfeiture of approximately $6 million worth of vehicles, homes, jewelry, bank accounts,
      and other property that the government had seized, and also entered a $16 million order of
      forfeiture. Two of the defendant’s companies, Chhabra Group, LLC, and VKC
      Consulting, LLC, were also convicted of conspiracy to commit money laundering. Eleven
      individuals, including five physicians and two pharmacists, pleaded guilty or have been
      found guilty in this scheme.

'	    A California man was sentenced to serve 51 months in prison and to forfeit cash proceeds
      for operating one of the largest internet pharmacy schemes ever prosecuted. Customers
      visiting his on-line pharmacy filled out a questionnaire and paid a $35 fee for a
      physician’s consultation, after which the ostensible physician would issue a prescription
      and the customer would receive the pharmaceuticals. In fact, there was no physician
      associated with the internet pharmacy at all. Not only were drugs dispensed without any
      physician’s review, but drugs labeled as the “generic” forms of Viagra, Cialis, Levitra,
      Propecia, Celebrex and others were actually counterfeit drugs illegally imported into the
      United States without FDA’s quality controls and public health safeguards. The
      individual pled guilty to conspiring to sell counterfeit drugs, mail fraud, and illegal
      importation or smuggling of drugs into the United States.

'	    As reported in the HCFAC Report for FY 2004, after a jury trial, a Texas pharmacist was
      convicted for his role in distributing hydrocodone and other controlled substances via his
      web-based pharmacy. The pharmacist has been sentenced to 20 years in prison.
      Customers had only to complete a short on-line questionnaire to receive the controlled
      substances. The pharmacist and his co-conspirators found doctors, paid per prescription,
      who were willing to sign thousands of prescriptions without ever seeing the patients. The
      scheme netted over $8 million in sales. This marked the first time that the kingpin statute
      was used to prosecute an internet pharmacy.

Hospital Fraud

'	    HealthSouth Corporation paid the United States $327 million to settle allegations of fraud
      against Medicare and other federally insured health care programs. The United States
      alleged that HealthSouth, the nation’s largest provider of rehabilitative medicine services,
      engaged in three major schemes to defraud the government. The first, comprising $170
      million of the settlement amount, resolved HealthSouth’s alleged false claims for
      outpatient physical therapy services that were not properly supported by certified plans of
      care, administered by licensed physical therapists, or for one-on-one therapy as
      represented. Another $65 million resolved claims that HealthSouth engaged in accounting
      fraud which resulted in overbilling Medicare on hospital cost reports and home office cost

                                               9

      statements. The remaining $92 million resolved allegations of billing Medicare for a
      range of unallowable costs, such as lavish entertainment and travel expenses incurred for
      HealthSouth’s annual administrators’ meeting at Disney World and other claims.
      Government-initiated claims accounted for $251 million of the settlement amount, with
      the remaining $76 million attributable to four qui tam law suits. HealthSouth also entered
      into a corporate integrity agreement (CIA) with the HHS/OIG to prevent future
      misconduct.

'	    Cleveland Clinic Florida Hospital paid $2.75 million to the United States to resolve
      allegations that the hospital billed Medicare for observation services for patients at the
      Florida hospital that did not qualify for reimbursement under the Medicare program. The
      settlement agreement resolved allegations by the United States that from 1993 to 2001 the
      hospital failed to comply with Medicare coverage requirements, as prescribed and defined
      by CMS, regarding beneficiaries that have been placed in “observation status” in order to
      receive treatment or be monitored before making a decision concerning their next
      placement. In particular, the settlement agreement resolved allegations that Cleveland
      Clinic frequently billed Medicare for extra observation charges during normal recovery
      periods following minor surgery or emergency room visits. Under Medicare rules, the
      cost for monitoring a patient’s status is, in most cases, built into the cost of the whole
      procedure. To claim an additional “observation” charge, the hospital must meet specific
      criteria, such as unexpected complications.

'	    The Eisenhower Medical Center in Rancho Mirage, California paid the United States $8
      million to settle allegations that it fraudulently overbilled federal health insurance
      programs. The settlement resolves allegations made against Eisenhower in a qui tam
      lawsuit filed by a former employee. The lawsuit alleged that Healthcare Financial
      Advisors helped its hospital clients seek reimbursement for unallowable costs and
      specifically alleged that it helped clients prepare two cost reports – an inflated one
      submitted to Medicare – and a second one designed for internal use only that accurately
      reflected the amount of reimbursement the hospital should have received.

Dialysis Fraud

'	    Gambro Healthcare paid the United States $310 million to resolve allegations concerning
      the submission of false claims to Medicare and Medicaid in connection with dialysis
      services. The allegations against Gambro included: providing home dialysis patients with
      equipment and supplies through a sham durable medical equipment (DME) company to
      increase Medicare reimbursement; billing for phantom supplies; billing for ancillary
      medications and services that were not medically necessary – a requirement for Medicare
      reimbursement; and paying kickbacks to physicians for referring patients to Gambro
      clinics in violation of the Medicare Anti-Kickback Statute.



                                              10

      Gambro also paid $15 million to resolve state Medicaid liabilities. In addition, Gambro
      Supply Corporation, the sham DME company and a wholly-owned subsidiary of Gambro
      Healthcare, paid a $25 million criminal fine and agreed to permanent exclusion from the
      Medicare program.

'	    The Hospital of St. Raphael in Connecticut entered into a civil settlement agreement and
      agreed to pay the United States $632,000 to resolve allegations that it improperly charged
      Medicare for treatment for kidney dialysis patients. Dialysis patients need surgically
      created fistula or grafts for vascular access during dialysis treatment. The fistula/grafts
      often become dysfunctional and need to be repaired or replaced. These procedures are
      usually performed under local anesthesia in an outpatient setting. If performed in an
      outpatient setting, Medicare pays the provider approximately $1,500. However, if the
      patient is admitted to the hospital, even for one night, Medicare pays the provider
      approximately $13,000. Allegedly, St. Raphael unnecessarily admitted Medicare
      beneficiaries to the hospital for the procedures in question and many of the beneficiaries
      could have been treated on an outpatient basis, at far less cost to the Medicare program.
      The United States also alleged that St. Raphael admitted patients for one night stays for
      these types of procedures far more often than other hospitals in Connecticut. St. Raphael
      entered into a CIA with the HHS/OIG designed to ensure compliance with the
      requirements of the Medicare program.

Fraud on Community Health Centers

'	    After an eleven-day trial, a jury found five individuals and a company, Duncan Drugs,
      guilty of health care fraud involving the Community Mental Health Center of East Central
      Georgia (CMHC). CMHC was a public agency that received millions of dollars in federal
      assistance annually. While a member of the Georgia House of Representatives, one of the
      defendants used his influence to insert a co-defendant as the business manager, and then
      executive director of CMHC. Through his placement as executive director, this individual
      fraudulently diverted more than $2 million of CMHC’s funds and directed kickbacks of
      over $900,000 to the defendant in the Georgia House, which he used, in part, to fund a
      failed re-election campaign for the House and a failed mayoral campaign. The former
      Georgia House member was sentenced to 120 months in prison and ordered to pay $1.46
      million in restitution and a forfeiture money judgment of $400,000. The former executive
      director of CMHC was sentenced to 72 months in prison and ordered to pay $1.47 million
      in restitution. Other defendants in this scheme included a local pharmacist, a former
      professional baseball player, and the grandson of a former Georgia Speaker of the House;
      these defendants were ordered to serve 52 months, 37 months, and 33 months in prison,
      respectively, with full restitution ordered to the federal government.




                                              11

'	    The former director of Kickapoo Community Health Services in Eagle Pass, Texas was
      sentenced to 15 years imprisonment and ordered to pay over $100,000 in restitution.
      Kickapoo Community Health Services was established by the Kickapoo Traditional Tribe
      of Texas and is federally funded by the United States Indian Health Service. A jury found
      the defendant guilty of one count of theft from a health care benefit program and two
      counts of money laundering for stealing funds that were to be used to pay healthcare
      providers for medical treatment and medications for Kickapoo tribal members.

Medicaid Fraud

'	    A district court in Indiana sentenced a dentist to 57 months imprisonment for a Medicaid
      fraud scheme relating to the provision of dental services for juveniles from the defendant’s
      mobile office. The defendant induced the parents or guardians of Medicaid-eligible
      patients to bring the children to him by offering, for example, gift cards or free compact
      disk players. The defendant would then submit claims to the Indiana Medicaid program
      for treatments that were not provided or were not medically necessary. In this manner, the
      defendant fraudulently obtained in excess of $2.4 million in Medicaid funds. Two
      corporations also pleaded guilty and were each sentenced to three years probation. The
      defendants were ordered to pay over $2.4 million in restitution and in excess of $70,000 to
      the Indiana Attorney General’s Office for the costs of investigation incurred by the state’s
      Medicaid Fraud Control Unit.

'	    A former Florida Medicaid employee filed a qui tam suit against the University of Miami
      alleging that it double-billed and overcharged Medicaid through several of its outpatient
      clinics. The employee contended that both the University and its outpatient clinics billed
      Florida Medicaid under their respective provider numbers for the same covered services
      provided to the same beneficiaries on the same date. The United States and the State of
      Florida also alleged that the University submitted claims for a facility fee in connection
      with primary care services provided to Medicaid recipients in circumstances where the
      University knew that these fees were not a covered item under the provisions of the
      Florida Medicaid program. The United States and Florida settled this matter with the
      University for almost $3.9 million.

'	    A licensed pharmacist who was also president and owner of Pierce Pharmaceuticals, Inc.
      was sentenced to 33 months imprisonment and ordered to pay over $2 million in
      restitution to the North Carolina Medicaid program. Pierce Pharmaceuticals provided
      prescription drugs to patients who were residents in long term care facilities in North
      Carolina. The defendant had his company submit claims for payment to the Medicaid
      program for refilling prescriptions that, in fact, had not been refilled, delivered, or even
      requested by the various long term care facilities with which it had contracts. As a result,
      the Medicaid program paid over 39,000 false claims to Pierce Pharmaceuticals.




                                               12

Chiropractic Fraud

'	    The owners and operators of twelve chiropractic/medical clinics in Ohio pleaded guilty to
      conspiring to commit health care fraud by billing Medicare and private health care benefit
      programs $4.8 million for noncovered chiropractic services for which they were ultimately
      paid $1.7 million. The defendants owned a chain of chiropractic clinics and converted
      them to joint chiropractic and medical clinics so they could use medical doctor billing
      numbers to avoid limitations on chiropractic care and bill for noncovered services. The
      company, MedBack, fraudulently billed for all chiropractic services using Current
      Procedural Terminology (CPT) codes for physical therapy or for office visits to the
      medical doctor. When the insurance plans correctly denied payment for noncovered
      chiropractic services, the owners sent appeal letters falsely stating that a medical doctor
      had performed all services and that the MedBack clinics did not provide chiropractic
      services. The defendants agreed to pay $1.7 million in restitution and be excluded from
      federal health care benefit programs for fifteen years.

Podiatry Fraud

'	    A podiatrist in Ohio was sentenced to 135 months in prison and ordered to pay restitution
      of over $1.7 million, as well as forfeit three Ohio properties following his second
      conviction on health care fraud charges. Previously, in 1998, the defendant pleaded guilty
      to upcoding claims submitted to Medicare for nursing home podiatry services. He was
      ordered not to bill Medicare for eight years, and, as a term of his supervised release, to tell
      his Probation Officer if he became involved, directly or indirectly, in any entity that billed
      Medicare. The State of Ohio also permanently revoked his license to practice podiatric
      medicine. Even as he was pleading guilty in 1998, however, the defendant was already
      scheming to keep control of his practice and its Medicare revenues. The defendant made
      it appear that he sold his practice to another podiatrist and pretended to transfer financial
      control of the practice to another individual, all while continuing to control and expand the
      practice, and using its Medicare revenues to pay his own expenses. On a loan application
      for a home paid for with Medicare funds, the defendant listed his own assets but listed the
      other individual as the borrower and used that person’s credit history to obtain the loan.
      In addition to health care fraud and conspiracy to commit health care fraud, the defendant
      was convicted of mail fraud, false statements, and bank fraud.

Ambulance Services Fraud

'	    Adventist Health System Sunbelt Healthcare Corporation, and a management company
      that administered ambulance operations at three hospitals affiliated with the company
      agreed to pay the government $20.3 million to settle allegations that they billed Medicare
      for ambulance transports that were not medically necessary. To support these claims, the
      management company and the hospitals allegedly created false physician certifications
      regarding the medical necessity of ambulance trips.


                                                13

Kickbacks

'	    PharMerica, Inc., and PharMerica Drug Systems, Inc., entered a settlement agreement
      with the HHS/OIG to resolve allegations that the companies paid unlawful kickbacks in
      connection with a purchase of a small Virginia pharmacy. In what was the largest
      settlement of a civil monetary penalties (CMP) kickback case to date, PharMerica agreed
      to pay more than $5.9 million to the government. A leading supplier of pharmacy services
      to long term care institutions, PharMerica allegedly overpaid for the pharmacy in return
      for a commitment from the seller – who also owned 17 nursing homes -- to refer its
      Medicare and Medicaid pharmacy business to PharMerica for the following seven years.
      The HHS/OIG alleged that PharMerica’s acquisition amounted to the unlawful purchase
      of referrals of federal health care program business from the nursing facility chain.
      PharMerica also entered into a five-year CIA with the HHS/OIG.

False Claims by a Research University

'	    The University of Alabama at Birmingham and two related entities will pay the United
      States $3.39 million to settle allegations that they violated the False Claims Act (FCA)
      with respect to claims submitted in connection with the school’s health science research
      activities. The settlement resolves allegations that, in completing applications for federal
      health science research grants, the school overstated the percentage of work effort that the
      researchers were able to devote to the grant. It was also alleged that the university, and
      the entity through which its medical school faculty provide clinical services, unlawfully
      billed Medicare for clinical research trials that were also billed to the sponsor of research
      grants.

Fraudulent Health Insurance Provider

'	    A San Francisco executive was sentenced to 41 months in prison and ordered to pay $1.3
      million in restitution for operating a fraudulent health insurance scheme that defrauded
      thousands of people across the United States. The victims purchased health insurance
      plans from the company, only to discover after illnesses or accidents that their health
      insurance was essentially worthless. According to the charges, the phony health insurance
      company collected over $2.8 million in premiums but deposited only a small fraction of
      those funds into trust accounts. Instead, the defendant spent much of the money on his
      personal expenses, paying salaries to members of his family, leasing expensive cars,
      buying football tickets, and paying commissions to so-called promoters who helped
      market the fraudulent plan.




                                               14

Durable Medical Equipment Fraud

'     Polymedica Corporation and its subsidiaries Liberty Medical Supply, Inc., and Liberty
      Home Pharmacy Corporation agreed to pay the United States $35 million to resolve
      allegations that they submitted improper claims to Medicare for various diabetic and
      nebulizer products. Claims were allegedly submitted without required doctor’s order or
      prescription, and the companies failed to obtain and maintain documentation verifying the
      necessity of the level of treatment rendered. The companies also allegedly billed
      Medicare without written authority from a patient to do so. Under the terms of this
      settlement, Polymedica Corporation and/or its subsidiaries also agreed to comply with a
      CIA negotiated by the HHS/OIG.

'     The owner of a California medical supply company pled guilty to health care fraud for
      billing Medicare for power wheelchairs, hospital beds and other equipment that was never
      prescribed by a physician, and never received by the beneficiaries. The individual was
      charged with having defrauded Medicare of some $2.4 million over five years. As part of
      the plea agreement, the owner agreed to forfeit his home, vehicles and bank accounts to
      pay restitution to the government.

'     The owner of a medical equipment company in Oklahoma was sentenced to serve 5
      months in prison and to pay more than $340,000 in restitution after pleading guilty to
      health care fraud. She admitted to forging doctors’ names on phony certificates of
      medical necessity. She furnished patients with scooters valued at $1,500, but billed the
      Medicaid program for electronic wheelchairs at $5,000.

'     Apria Healthcare Group Inc., the nation’s largest supplier of DME, paid the United States
      $17.6 million to settle two civil FCA cases filed against Apria by former employees. The
      settlements resolved allegations that between mid-1995 through 1998, Apria submitted
      false documents certifying medical necessity; failed to obtain written prescriptions from
      physicians prior to delivery of equipment when required to do so; failed to notify patients
      of their option to purchase DME; and misrepresented the date or place equipment was
      delivered to patients.

Obstruction of a Federal Audit

'	    Charges of unlawful kickbacks against OPI Properties, Inc., a subsidiary of the Swiss
      Novartis Corporation were resolved with OPI pleading guilty to nine felony counts of
      attempting to obstruct a federal audit. OPI was ordered to pay $4.5 million to the
      government and was permanently excluded from Medicare and Medicaid. Under a
      separate civil agreement, Novartis Nutrition Company, also a subsidiary of the Swiss
      company, agreed to pay over $44 million to the United States.



                                              15

      Both actions arose from an undercover operation in which various manufacturers and
      distributers of enteral nutrition products offered kickbacks to federal agents operating a
      storefront distributor of medical supplies. OPI provided free equipment to the phony
      distributor in exchange for a long-term contract involving services to Medicare patients,
      then created false invoices for the free items, instructing the undercover agents to produce
      the dummied invoices in the event of a Medicare audit. The civil settlement resolved
      allegations that OPI and Novartis Nutrition caused false claims to Medicare in connection
      with arrangements that violated the Medicare Anti-Kickback Statute. Novartis Nutrition
      entered a five year CIA with HHS/OIG.

Physician Fraud

'	    A Virginia physician specializing in pain management was sentenced to 25 years
      imprisonment and ordered to pay a $1 million fine for his conviction on drug distribution
      charges and drug trafficking that resulted in one death and serious injuries to others.
      During the six-week trial, the Government demonstrated that he performed perfunctory
      exams on patients, and then facilitated the patients’ demand for excessive amounts of
      controlled substances, including OxyContin. Evidence showed that the physician knew
      that patients were abusing the controlled substances, or selling them to others.

Medicare Contractor Fraud

'	    United Healthcare Insurance Company agreed to pay the United States $3.5 million to
      settle allegations that the company defrauded the Medicare program. As a former DME
      Regional Carrier, United Healthcare contracted with CMS to process Medicare claims for
      DME submitted by providers, suppliers and Medicare beneficiaries in the Northeastern
      United States. The government alleged that United Healthcare’s telephone response unit
      knowingly mishandled phone inquiries received from Medicare beneficiaries and
      providers and then falsely reported its performance information to CMS concerning the
      company’s handling of those calls.

Teaching Hospital Physicians’ Fraud

'	    The University of Medicine and Dentistry of New Jersey agreed to pay the federal
      government $1.4 million to resolve allegations that the medical schools falsely represented
      that services billed to Medicare were personally provided by teaching faculty, when there
      was insufficient documentation that those physicians were “personally and identifiably
      involved” in the care. This marks the last of the government’s several cases brought as
      part of an initiative to review rules governing Medicare payments to physicians at
      teaching hospitals.




                                               16

Quality of Care Issues

Another area in which collaboration among the federal authorities responsible for health oversight
has proved most effective has been in enforcement and oversight of issues relating to quality of
care, as demonstrated by the following:

'	     A joint federal-state investigation of a nursing home owned by Hillcrest Healthcare, Inc.,
       disclosed egregious quality of care problems at the Connecticut facility. One resident had
       died of septic infection allegedly caused by improperly treated bedsores; others suffered
       from severe pressure sores and pressure ulcers, dehydration, and weight loss. The
       government also alleged that the home failed to employ adequate staffing, and failed to
       follow plans of care. By consent order, the home surrendered its license and paid the state
       $200,000. The company pled nolo contendere in state court to charges of Manslaughter in
       the Second Degree arising out of the death of the resident. The company entered a civil
       settlement with the federal government to resolve allegations of submitting false claims to
       Medicare and Medicaid. Hillcrest agreed to pay a total amount of $750,000. In addition,
       Hillcrest agreed to be permanently excluded from the Medicare and Medicaid programs.
       Hillcrest sold the facility to new owners in December 2004.

'	     The United States entered a civil settlement agreement with Central Montgomery Medical
       Center over the Pennsylvania hospital’s alleged quality of care deficiencies. The
       agreement marked the first settlement for failure of care based upon alleged violations of
       regulatory requirements relating to use of physical and chemical restraints. The
       government alleged that the hospital knowingly billed for numerous patients who were
       improperly physically and/or chemically restrained in violation of federal law, in one case
       ending in the death of a restrained elderly patient. The hospital agreed to pay the
       government $200,000 and to hire a consultant to review restraint usage at the facility.

'	     After a five week trial, a jury found a now-defunct suburban Pittsburgh nursing home and
       its former administrator guilty of heath care fraud and numerous false statements relating
       to health care matters. The evidence presented at trial established that the nursing home
       administrator and Atrium I Nursing and Rehabilitation Center engaged in a scheme to
       defraud Medicare and Medicaid of more than $7 million from 1999 through August 2003.
       The scheme involved a failure to provide required care for Atrium residents, most of
       whom were diagnosed with Alzheimer’s disease. The defendants falsely represented they
       were providing appropriate care, and concealed deficiencies from regulatory agencies by
       the extensive falsification of records.

'	     Boston Scientific Corporation of Massachusetts paid $74 million to address thecompany’s
       illegal distribution of the Nir ON Ranger with Sox premounted coronary stent delivery
       system. Boston Scientific recalled the device from the market less than two months after
       commercial launch because of a manufacturing defect that affected its safety and
       effectiveness. The settlement ended an investigation that was initiated in 1998 by DOJ.
       The United States alleged that Boston Scientific shipped more than 30,000 adulterated and
       misbranded devices to hospitals throughout the country. The government accused Boston

                                               17

Scientific of continuing to ship the devices for weeks after an internal investigation had
determined that a substantial number of the devices were not functioning properly. On
October 5, 1998, Boston Scientific management notified the FDA that the company was
immediately stopping shipments of the device and was pulling the product from the
market. Nevertheless, later that day, Boston Scientific shipped an additional 833 units to
hospitals throughout the country. According to the FDA, the defect was responsible for
26 injuries, including several surgeries to remove a dislodged stent. The settlement was
paid as an equitable monetary penalty.




                                        18

    FUNDING FOR THE DEPARTMENT OF HEALTH AND

                 HUMAN SERVICES

                                Office of Inspector General

Certain of the funds appropriated under HIPAA are, by law, set aside for Medicare and Medicaid
activities of HHS/OIG. In FY 2005, The Secretary and the Attorney General jointly allotted $160
million to the HHS/OIG which is the statutory maximum permitted under HIPAA. This is equal
to the amount allotted to the HHS/OIG in 2003 and 2004. This represents approximately 80
percent of the HHS/OIG’s overall funding.

The HHS/OIG participated in investigations or other inquiries that resulted in 799 prosecutions or
settlements in FY 2005, of which 633 or 79% percent were health care cases. A number of these
are highlighted in the Accomplishments section. During FY 2005, the HHS/OIG also excluded a
total of 3,804 individuals and entities, barring them from participating in Medicare, Medicaid, and
other federal and state health care programs. In addition, the Department of Health and Human
Services collected more than $423 million in disallowances of improperly paid health care funds,
based on HHS/OIG recommendations.

Program Savings

Frequently, investigations, audits and evaluations reveal vulnerabilities or incentives for
questionable or fraudulent financial practices in agency programs or administrative processes. As
required by the Inspector General Act, the HHS/OIG makes recommendations to agency managers
to address these vulnerabilities. In turn, agency managers recommend legislative proposals or
other corrective actions that, when enacted or implemented, close loopholes and reduce improper
payments or conduct. The net savings from these joint efforts toward program improvements can
be substantial. During FY 2005, HHS/OIG estimates that such corrective actions resulted in
health care savings (i.e., funds put to better use as a result of implemented legislative or other
program initiatives) of approximately $30 billion -- nearly $22.9 billion in Medicare savings, and
more than $7.5 billion in savings to the Medicaid program. Additional information about savings
achieved through such policy and procedural changes may be found in Appendix A to the
HHS/OIG Semiannual Report, on-line at http://oig.hhs.gov/reading/semiannual.html

Exclusions

One important mechanism for safeguarding the care provided to program beneficiaries is through
exclusion of providers and suppliers who have engaged in patient abuse or neglect or fraud.
During FY 2005, the HHS/OIG excluded a total of 3,804 individuals and entities. Among these
were exclusions based on criminal convictions for crimes related to Medicare or Medicaid (770),
or to other health care programs (264); for patient abuse or neglect (325); or as a result of
licensure revocations (2,012). Among those excluded by the HHS/OIG were the following:



                                                19

<	     A certified nurse aide (CNA) in Colorado was excluded for 25 years as a result of being
       convicted for sexual assault against an elderly nursing home patient who suffered from
       Alzheimer’s. The aide was sentenced to serve 15 years-to-life in prison.

<	     An Oklahoma pediatrician was excluded for 50 years based on his conviction for abuse of
       minor patients. The physician confessed to abusing 18 children, all under the age of 16,
       over a period that spanned 20 years.

<	     A DME sales representative in Florida was excluded for 28 years after his conviction for
       participating in a scheme to bill Medicare for millions of dollars in medically unnecessary
       DME items.

<	     A South Carolina physician was excluded for 26 years after his conviction for his part in a
       scheme to sell prescriptions for controlled substances such as OxyContin and Percocet.

Other Administrative Enforcement Actions – Civil Monetary Penalties

The Office of Inspector General has authority to impose civil monetary penalties (CMPs) against
providers and suppliers who knowingly submit false claims to the government, who participate in
unlawful patient referral or kickback schemes, who fail to appropriately treat or refer patients who
present at hospital emergency rooms, or who engage in other activities prescribed in statute. The
HHS/OIG has stepped up its affirmative enforcement actions under these authorities. The
PharMerica case discussed previously is one example. Others are:

<      The Visiting Nurse Association of Washington, D.C. (now MedStar Health Visiting Nurse
       Association) and its home office, Visiting Nurse Association, Inc., agreed to pay more
       than $1.3 million to resolve its liability for allegedly filing Medicare cost reports
       containing services that were not provided as claimed. The inquiry involved alleged
       transactions with related third parties that were not disclosed or documented. The
       company also entered a five-year CIA.

<      A former hospital Chief Executive Officer (CEO) in Nebraska entered an agreement with
       the HHS/OIG to resolve his potential liability for allegedly paying kickbacks to a
       physician in the form of loan guarantees, consultant fees and discounts in exchange for
       referral of Medicare business. The CEO, too, received annual bonuses that allegedly were
       based on the referrals. The hospital previously entered a settlement agreement with the
       United States to resolve potential liability under the FCA for the same alleged conduct.

<      St. Joseph Mercy-Oakland Hospital in Michigan agreed to pay $4 million for allegedly
       violating the anti-kickback statute and Stark law in connection with financial
       arrangements between the hospital and more than a dozen physician groups. The hospital
       voluntarily disclosed the potential violations under the HHS/OIG’s “Provider Self-
       Disclosure Protocol.”



                                                20

Studies, Audits, and Evaluations

The HHS/OIG conducts numerous audits and evaluations that disclose improprieties in Medicare
and Medicaid, and recommends corrective actions that, when implemented, correct program
vulnerabilities and save program funds. Among these were:

Medicaid. The HHS/OIG has continued its stepped-up oversight of a number of state
questionable practices and financing schemes designed to maximize federal payments under
Medicaid.

<	     School-Based Health Services. Medicaid covers certain school-based health services for
       children with disabilities or special needs. Audits disclosed that some states had
       insufficient controls to ensure that school health services claims were legitimate. As an
       example, an audit of New York’s program identified almost $436 million in improper
       federal payments for school-based speech services, and more than $96 million for
       transportation services. Eighty-six of 100 sampled claims for speech services in New
       York City did not comply with federal and state requirements for documenting services,
       referrals from appropriate medical professionals, and provider qualifications. As for
       transportation, HHS/OIG concluded that none of the 120 claims sampled complied with
       applicable requirements. Deficiencies included lack of documentation, failure to render
       other Medicaid-covered services on the day transportation services were billed, and failure
       to document the need for transportation services.

       HHS/OIG also reviewed three other states’ school-based health programs to determine
       whether claims for school-based services were eligible for federal reimbursement. In
       audits of the Maine, Massachusetts, and Vermont health programs, HHS/OIG identified
       over $15.5 million in overpayments. HHS/OIG has recommended that CMS recover the
       federal payments made for services in all of these states, and, as appropriate, take steps to
       make certain state controls are sufficient to prevent impropriety in the future.

<	     Intergovernmental Transfers. States sometimes make payments to public providers, and
       then require the providers to return a large portion of those payments, yet still collect the
       federal share of these illusory payments. The HHS/OIG reviewed public nursing homes in
       New York, Tennessee, and Washington to determine whether Medicaid payments to the
       nursing homes were adequate to cover their operating costs and whether there was a link
       between the quality of care provided to the facilities’ residents and the amount of
       Medicaid funding received. The HHS/OIG found that while initial Medicaid payments to
       the facilities were adequate to cover costs, the net Medicaid funding the facilities were
       allowed to retain did not meet their operating costs because the state and/or county
       required the facilities to return 90 to 96 percent of the upper payment limit payments they
       received. Over a 3-year period, the funding deficits were $25 million, $22.8 million, and
       $290,000 for the New York, Tennessee, and Washington facilities, respectively.


                                                21

<	    Upper-Payment Limit Calculations. HHS/OIG audited four states’ upper payment limit
      (UPL) payments to determine whether states calculated the UPLs for hospitals and non-
      state government facilities in accordance with federal requirements and approved state
      plans. As a result of the audits, the HHS/OIG recommended that the states – Kansas,
      Oregon, New Jersey, and North Carolina – refund a total of approximately $212 million in
      unallowable Medicaid payments.

<	    Disproportionate Share Hospital (DSH) Payments. States are required to make DSH
      payments to compensate hospitals for the uncompensated costs of serving an inordinate
      number of low-income patients with special needs. Audits in Illinois found that DSH
      payments to one hospital exceeded the hospital-specific limit imposed under the Social
      Security Act by $140.3 million, and overpayments to another hospital totaled $4.5 million.
      The HHS/OIG recommended that the state refund these overpayments.

Medicare Group Purchasing Organizations

<	    Group purchasing organizations (GPOs) leverage the purchasing power of their members
      (primarily hospitals and other health care providers) to secure discounts on medical
      supplies for those members. Vendors also pay administrative fees to GPOs, in exchange
      for administrative services and for the opportunity to sell through a GPO to its members.
      The HHS/OIG reviewed three large GPOs that collectively received $1.8 billion in
      administrative fees during the audit period. Of this amount, $1.3 billion was net revenue
      in excess of operating costs. The GPOs distributed $898 million of this excess revenue to
      its members.

      Medicare rules generally require providers to offset purchase discounts, allowances, and
      refunds against expenses on their Medicare cost reports. The HHS/OIG reviewed 21 GPO
      members, and found that they did not fully account for net revenue distributions on their
      Medicare cost reports. There was considerable variation among the GPOs, with members
      of one GPO offsetting 92 percent of the distributions, members of another offsetting only
      54 percent. In total, 22 percent of net revenue distributions were not offset. The
      HHS/OIG recommended that CMS issue specific guidance regarding the treatment of
      GPO net revenue distributions on Medicare cost reports. Separately, the HHS/OIG
      determined that the 21 GPO members generally offset vendor rebates on their Medicare
      cost reports, as required.




                                              22

Drug Pricing

<	    Medicaid Federal Upper Limit (FUL) Drug List. Under Medicaid, CMS is required to
      establish federal maximum reimbursement levels for certain multiple source drugs. CMS
      has set and published these FULs for over 400 drugs. However, a review found that CMS
      does not consistently add qualified drugs to the upper limit list in a timely manner. Of the
      252 first-time generic drugs approved between January 2001 and December 2003, 109 met
      the criteria for inclusion on the FUL list, but only 25 were actually added to the list.
      For those drugs that were added, CMS took an average of 36 weeks to place the products
      on the FUL list. Had the drugs been added to the list in a timely manner, the HHS/OIG
      estimated that Medicaid would have saved $167 million.

<	    HHS/OIG conducted a series of studies that continue to examine whether Medicaid is
      overpaying for prescription drugs. Two companion studies examined the published prices
      states use to set Medicaid reimbursement rates and concluded that the Medicaid drug
      reimbursement rates are higher than statutorily-defined prices based on actual sales. The
      HHS/OIG recommended that Medicaid base its reimbursement on pricing data that more
      closely reflect pharmacy acquisition costs. The HHS/OIG also examined FUL rates
      established by CMS for certain generic drugs and found FUL to be, on average five times
      higher than average manufacturer prices for the same drugs in 2004. If Medicaid based its
      upper limit rates on reported average manufacturer prices, the program could save
      hundreds of millions of dollars.

Oversight of CMS Error Rate Testing

<	    CMS operates two programs to develop a fee-for-service (FFS) Medicare error rate; the
      Hospital Payment Monitoring Project (HPMP) generates an error rate for inpatient acute
      care hospital claims, and the Comprehensive Error Rate Testing program (CERT)
      produces a rate for other provider claims. Together, these produce an overall annual
      Medicare FFS paid claims error rate that is reported to the Congress.

      The HHS/OIG audited aspects of both of these programs. For hospital services, the audit
      concluded that HPMP contractors generally followed appropriate criteria for determining
      medical necessity of claimed services, and for designating correct diagnosis-related
      groups (DRG). There were minor inaccuracies in calculations for claims for certain
      corrected-, DRGs, but the inaccuracies were not statistically significant.

      For other provider claims, HHS/OIG reviewed controls in place to ensure the integrity of
      the CERT contractor’s processes for reviewing 120,000 claims each year. The CERT
      contractor requests and reviews medical records underlying these sampled claims. If
      providers fail to produce the records, the contractor follows up with calls and letters. The
      contractor also selects certain claims for “quality assurance reviews.”




                                               23

      The HHS/OIG found that though the contractor had appropriate controls to assure the s
      oundness of medical reviews, the contractor had fallen behind in its quality assurance
      reviews. CMS agreed to award a second CERT contract to reduce the workload, and
      allow the contractor to keep current on its required quality monitoring.

<	    In a related study, HHS/OIG concluded that provider responsiveness to CMS contractor
      requests for medical records for use in determining the CERT error rate had improved.
      Provider non-responses did not have a statistically significant impact on the calculation of
      the overall error rate.

Medicare Outlier Payments

<	    Medicare pays additional payments, beyond DRG payments, to compensate hospitals for
      treating unusually costly patients. To stem excessive growth in claims for these “outlier
      payments,” in 2003 CMS issued regulations revising rules for calculating such payments.
      The HHS/OIG examined outlier payments at more than 350 hospitals and determined that
      the regulations have reduced outlier payments by nearly 43 percent. CMS estimated that
      the new outlier rules would save in excess of $9 billion over five years.

Family Planning Service Costs

<	    The federal government reimburses the costs of family planning services at an enhanced
      90-percent matching rate. These services are intended to prevent or delay pregnancy or to
      otherwise control family size. In several reviews, HHS/OIG found that states did not
      always comply with appropriate requirements, including the provisions of their respective
      state plans, for charging these costs to Medicaid. One state retroactively claimed an
      increase of more than $11 million as the difference between regular federal matching rates
      and the enhanced 90-percent rate for prior family planning expenditures. Of this amount,
      more than $6 million was determined to be unallowable. In another state, claims for
      family planning service costs were overstated by $3.7 million ($1.4 million in federal
      reimbursement) because the state improperly claimed these costs at the enhanced family
      planning rate.

Industry Outreach and Guidance

<	    Advisory Opinions. Central to the HIPAA guidance initiatives is an advisory opinion
      process through which parties may obtain binding legal guidance as to whether their
      existing or proposed health care business transactions run afoul of the federal anti-
      kickback statute, the CMP laws, or the exclusion provisions. During FY 2005, the
      HHS/OIG, in consultation with DOJ, issued 18 advisory opinions. A total of 132 advisory
      opinions were issued during the first nine years of the HCFAC program.

<	    Supplemental Compliance Guidance for Hospitals . The HHS/OIG periodically works
      with specific industry sectors to develop guidance, tailored to that sector, on how to
      prevent the submission of false claims or other impropriety. In FY 2005, HHS/OIG issued

                                               24

       supplemental guidance to hospitals, that builds on guidance issued seven years earlier.
       The “Supplemental Compliance Guidance for Hospitals” includes an expanded risk
       section that points out areas of significant risk for hospitals. It also offers suggestions on
       how hospitals might identify potential problems, and how they might assess the
       effectiveness of their compliance programs. The Guidance may be found at
       http://oig.hhs.gov under “Fraud Prevention and Detection.”

<	     Corporate Integrity Agreements. Many health care providers that enter agreements with
       the government to settle potential liabilities for violations of the FCA also agree to adhere
       to a separate CIA. Under these agreements, the provider commits to establishing a
       program or taking other specified steps to ensure its future compliance with Medicare and
       Medicaid rules. At the close of FY 2005, the HHS/OIG was monitoring more than 370
       CIAs.

                       Centers for Medicare & Medicaid Services

In FY 2005, the Centers for Medicare and Medicaid Services (CMS) was allocated $22.3 million
to fund a variety of projects related to fraud, waste and abuse in the Medicare and Medicaid
programs. Of this amount, approximately $19 million was specifically dedicated to combat fraud
in the State Children’s Health Insurance (SCHIP) and Medicaid programs.
CMS has increased its efforts to use advanced technology to detect and prevent fraud and abuse
and to ensure that CMS pays the right providers, the right amount, for the right service, on behalf
of the right beneficiary. Projects include:

Payment Error Rate Measurement (PERM):

PERM is the program that CMS uses to implement the Improper Payments Information Act of
2002 that requires HHS to measure improper payments in Medicaid and the SCHIP. During FY
2005, CMS revised its approach to measure Medicaid and SCHIP improper payments using a
national contracting strategy rather than requiring states to do the measurement. CMS will
initially develop a Medicaid FFS error rate in FY 2006. CMS used FY 2005 HCFAC funds to
begin funding contracts for statistical and documentation support needed to begin measuring the
Medicaid FFS error rates in FY 2006. When the improper payments measurement is completed
for FY 2006, CMS will report the error rates and will use the results to help states plan corrective
actions to reduce the rate of improper payments in their programs.

Medicaid/SCHIP Financial Management Project:

During FY 2004, CMS hired and began training 100 accountants and financial analysts to
improve the financial management and fiscal oversight of the Medicaid program. Since then,
staff have reviewed states’ operating plans prior to the beginning of the fiscal year so that
problems or issues could be resolved before claims are submitted. They performed in-depth
reviews of funding sources such as donations, taxes, certified public expenditures,
intergovernmental transfers, and state and local appropriations to verify that they are allowable
non-Federal funding sources.
                                                 25

The CMS goal is to eliminate the current need to disallow Federal Medicaid funding after it has
already been spent by states, and instead to identify any unallowable funding schemes or
expenditures before they occur.

Medicaid Audits

In FY 2005, HCFAC funds were allocated to CMS to support a series of special Medicaid audits
conducted by the HHS/OIG through an Interagency Agreement with CMS. Approximately 20
audits were undertaken in states and issue areas specified by CMS. The major targeted areas
included: school based services, administrative costs, skilled professional medical personnel and
provider overpayments.


Medicare/Medicaid Data Match Expansion Project (Medi-Medi)

In FY 2005, HCFAC funds were used by CMS to continue operations in nine Medi-Medi project
states which included Texas, Illinois, North Carolina, Florida, New Jersey, Pennsylvania, Ohio,
Washington, and California. These developed from the original matching project in California
which started operations in February 2002. The Medi-Medi project examines the health care
claims data from two programs that share many common beneficiaries and providers to look for
billing patterns that may be indicative of potential fraud or abuse that may not be evident when
provider billings from either program are viewed in isolation.

Since inception, the Medi-Medi projects have yielded 335 investigations with an estimated $182
million at risk.4 In addition, as a result of the Medi-Medi projects, 42 cases were referred to law
enforcement, and over $4.7 million in overpayments were identified for recovery. In FY 2005,
CMS added a tenth Medi-Medi state, New York. Finally, individual Medi-Medi projects
continue to uncover a variety of health care fraud schemes. One of the most notable items
uncovered at the end of FY 2005 came in the form of a vulnerability reported by the Pennsylvania
Medi-Medi project. The Program Safeguard Contractor, working in conjunction with the state,
uncovered a weakness in the process for billing and processing pharmaceutical drug claims
stemming from the Medicare program and the Medicaid program using different procedure
coding systems. As a result, $20 million in potential overpayments were identified for calendar
year 2004 alone. Significantly, CMS has preliminary indications that this same vulnerability may
exist across all of the Medi-Medi projects, and will further explore this vulnerability.


        4
          Dollar amount at risk: The dollar amount paid to the provider for the potential
fraudulent behavior under investigation for the time period for which fraud is suspected up to a
maximum of three years. For example, these estimates may be dollars paid for a specific code or
service under review, the dollars paid in duplicate in a double-billing scheme, or dollars paid for
services beyond 16 hours in a day. In future reporting periods, this amount may change based on
further investigation, medical review, or the calculation of an overpayment. Experience has
shown that the dollar amount at risk associated with a potential data-analysis lead will become
more precise and reliable as the investigation matures.
                                                26
                             Office of the General Counsel

The Office of the General Counsel (OGC) provides legal support consistent with the statutory
authority of the HCFAC program. OGC was allocated $4.778 million in HCFAC funding in FY
2005 to support program integrity activities. OGC reviews programs and activities of CMS in
order to strengthen them against potential fraud, waste, and abuse, to prevent the wrongful
disbursement of program funds in the first instance, consistent with the statutory goals of
HCFAC. OGC accomplishments in FY 2005 include the following:


False Claims Act (FCA) and Qui Tam Actions

<	     OGC provided litigation support and advice to the Commercial Litigation Branch of DOJ,
       and the United States Attorneys in actions relating to Medicare or Medicaid fraud under
       the FCA. For example, OGC participated in the global settlement with HealthSouth, the
       nation’s largest provider of rehabilitation services.


Criminal Prosecutions

<	     During work on a CMP administrative case, OGC discovered and developed evidence in a
       case involving a former executive with Iowa’s largest nursing home chain. OGC referred
       the matter to the USA, and the former executive was subsequently indicted for obstruction
       of a federal audit, conspiracy, and making false statements to federal officials. Two
       nurses were also indicted in the same matter, and the corporate owner entered into a
       settlement paying $500,000 in penalties.


Civil Monetary Penalties (CMPs)

<	     OGC represented CMS in 900 plus new administrative matters in FY 2005, with nearly
       half of these being formal appeals before the Departmental Appeals Board. CMP
       recoveries against nursing homes, due to favorable administrative decisions, negotiated
       settlements, and favorable court decisions totaled over $8.9 million.


Suspensions

<	     OGC’s advice to CMS regarding two medical suppliers that submitted DME claims based
       on forged prescriptions influenced CMS’s decision to suspend payment to the supplier
       who is now facing criminal charges of defrauding Medicare of $2.4 million.




                                               27

<	     OGC worked on multiple cases centered around the suspension of a common billing
       company for DME suppliers in South Florida that resulted in improper Medicare
       payments of almost $100 million in a period of only three to four months.


Enforcement of Medicare and Medicaid Participation Standards

<	     OGC assisted in defending a nursing home’s appeal to the Sixth Circuit Court of Appeals
       in which the final administrative decision included findings of substantial non-compliance
       at the immediate jeopardy level and the imposition of a CMP of $4,050 per day.


Affirmative Overpayment Litigation

<	     OGC assisted in collecting over $60 million in overpayments from Medshares, one of the
       nation’s largest home health care chains, and continues to represent Medicare’s interest in
       the bankruptcy of Intrepid USA, a nationwide home health company that assumed
       significant repayment obligations to CMS with the acquisition of the remaining assets of
       Medshares. OGC obtained Intrepid's repayment in full of the Medshares-related
       obligations.


Review of Regulations Implementing the Medicare Prescription Drug, Improvement and
Modernization Act of 2003 (MMA)

The goal of program integrity review – in which OGC reviews CMS’s programs and activities in
order to strengthen them against potential fraud, waste, and abuse – is to prevent the wrongful
disbursement of program funds in the first instance. During FY 2005, OGC reviewed several
rules implementing various provisions of the MMA. For example:

       OGC worked closely with CMS on the development of the final rule implementing the
       new Medicare Part D prescription drug benefit, scrutinizing the rule from a program
       integrity perspective to minimize opportunities for fraud, waste, and abuse in the new
       multi-billion dollar program. OGC also helped CMS draft the compliance plan
       requirements for Part D sponsors and worked closely with law enforcement to coordinate
       how CMS rules and policies can assist in the investigation and prosecution of entities
       committing fraud and abuse.


Policy Guidance, Education, and Coordination of Fraud and Abuse Control Activities

CMS relies upon provider and beneficiary education programs to lower the number of erroneous
Medicare claims. OGC expanded its efforts, in conjunction with CMS and its state partners, to
provide regular training sessions with surveyors from the state agencies under contract with CMS.

                                               28

 OGC attorneys throughout the country address bar associations and other private legal groups as
part of the department’s outreach efforts regarding the requirements of the Medicare Secondary
Payer statute. Such outreach events help to reduce Medicare expenditures and sensitize the legal
community to recognizing that individuals must reimburse Medicare when the cost of treatment is
paid by someone else. Examples include a panel discussion of Medicare nursing home issues at
the annual conference of the American Association of Public Welfare Attorneys; and a
presentation to the Missouri Bar Association Committee on Elder Law regarding nursing home
enforcement procedures and the new prescription drug program.


                                  Administration on Aging

In FY 2005, the Administration on Aging (AoA) was allocated $3.128 million in HCFAC funds
to develop and disseminate consumer education information to older Americans, with a particular
focus on persons with low health literacy, individuals from culturally diverse backgrounds,
persons living in rural areas, and other vulnerable populations. AoA and its nationwide network
of agencies supported community education activities designed to assist older Americans and
their families to recognize and report potential errors or fraudulent situations in the Medicare and
Medicaid programs.

Senior Medicare Patrol (SMP) Projects recruit retired professionals to educate and assist
Medicare beneficiaries to detect and report health care fraud, error, and abuse in Medicare and
Medicaid programs. According to the last performance information from the Assistant Inspector
General for Evaluation and Inspections, over the 12-month period, ending June 30, 2005, the 57
SMP projects trained over 6,400 new senior volunteers; these volunteers perform an essential
function of this program in sharing the SMP message within the senior community.

Outreach to senior consumers is a key element of the SMP program. During FY 2005, projects
conducted over 28,000 media events and held close to 7,300 community education events to
increase beneficiary awareness about issues related to Medicare and Medicaid integrity. As a
result of these efforts, over 372,000 beneficiaries were educated, either in group or one-on-one
sessions.

As a result of educating beneficiaries, the projects received over 18,300 complaints. While the
SMP program staff were able to address the majority of these issues for beneficiaries, almost
1,000 were referred to Medicare contractors or other responsible agencies for follow-up. Almost
700 of these complaints resulted in money recouped to the Medicare program or another action
taken by the Medicare contractor or investigative agency. In total, SMP projects documented
over $110,000 recouped to the Medicare program during this period. The projects also reported
over $17,000 in savings to the Medicaid program, and savings of approximately $194,000 to
beneficiaries. On July 1, 2005, one-year capacity-building grants were awarded to Guam and the
U.S. Virgin Islands to extend program coverage to seniors not previously reached in these U.S.
territories.

                                                 29

While it is not possible to directly track all of the cases reported and dollars recovered through
SMP community education activities, or quantify the "sentinel effect" in fraud costs avoided due
to increased consumer awareness, approximately $104.3 million has been reported as savings
attributable to the program since its inception.


     Office of the National Coordinator for Health Information Technology

In FY 2005, the Office of the National Coordinator for Health Information Technology (ONC)
was allocated $490,000 to conduct a six-month project to determine how the use of health
information technology can enhance and expand health care anti-fraud activities. The project
involved two main tasks: 1) a descriptive study of the issues and steps in the development and use
of automated coding software that enhance healthcare anti-fraud activities; and 2) identifying best
practices to enhance the capabilities of a nationwide interoperable health information technology
infrastructure to assist in prevention, detection and prosecution in cases of healthcare fraud or
improper claims and billing.

A report for automated coding software identified the characteristics of automated coding
software tools that have the potential to detect improper coding; prevent improper or potentially
fraudulent coding practices. The report also identified the characteristics that relate to the role of
electronic health records; and, developed a set of recommendations for software developers and
users of coding products to maximize anti-fraud practices and prevention measures.

A second report identified best practices to enhance the capabilities of a nationwide interoperable
health information technology infrastructure to assist in health care fraud prevention, detection
and prosecution. The report described how potentially fraudulent activities can be prevented
from occurring through the use of new technologies. In addition, the report included an economic
impact model to serve as a framework for tracking fraud and non-fraud related costs/benefits
associated with developing and implementing a nationwide interoperable health information
network with interoperable electronic health records.


                     Health Resources and Services Administration

In FY 2005, $450,320 in HCFAC funds were allocated to the Health Resources and Services
Administration for supplemental funding of the Healthcare Integrity and Protection Data Bank
(HIPDB) to supplement the overall operations and maintenance of the program. The primary
focus of the HIPDB is to prevent or reduce fraud and abuse in the medical system and to enhance
quality health care by serving as a repository for collecting, maintaining, and reporting on final
adverse actions taken against health care providers, suppliers and practitioners.




                                                  30

This information helps prevent practitioners, providers, and suppliers with problem backgrounds
from moving from state to state unnoticed by licensing, government and health plan officials, thus
improving health care quality. It also assists law enforcement officials in their efforts against
health care fraud and abuse.

The HIPDB opened for reporting in 1999, and as of September 30, 2005, the HIPDB contained
223,775 reports of health care related civil judgments, criminal convictions, injunctions, licensing
and certification actions, exclusions from state and federal health care programs, and other
adjudicated actions involving 129,526 individuals and 4,879 organizations.

As of September 30, 2005, the HIPDB had responded to 5,291,625 queries from state and Federal
agencies (including law enforcement) and health plans. The HIPDB has processed over 6.5
million queries since 2000 and maintains over 223,000 reports.




                                                31

            FUNDING FOR DEPARTMENT OF JUSTICE


                                   United States Attorneys

In FY 2005, the United States Attorney’s Offices (USAOs) were allocated $30.4 million in
HCFAC program funds to support civil and criminal health care fraud and abuse litigation as
exemplified in the Program Accomplishment's section. The USAOs dedicated substantial
resources to combating health care fraud and abuse in FY 2005. HCFAC allocations have
supplemented those resources by providing dedicated positions for attorneys, paralegals, auditors
and investigators, as well as funds for litigation of resource-intensive health care fraud cases.

The 93 United States Attorneys and their assistants, or AUSAs, are the nation’s principal
prosecutors of federal crimes, including crimes committed by health care providers. Civil
attorneys in the USAOs are responsible for bringing affirmative civil cases to recover funds that
federal health care programs have paid as a result of fraud, waste, and abuse, with support in
those cases designated by the Civil Division for joint handling. USAOs also handle most criminal
and civil appeals at the federal appellate level.

In addition to the staff positions funded by HCFAC, the Executive Office for the United States
Attorneys’ (EOUSA) Office of Legal Education (OLE) uses HCFAC funds to train AUSAs and
other Department attorneys, as well as paralegals, investigators, and auditors in the investigation
and prosecution of health care fraud. In FY 2005, OLE conducted courses and presentations on
health care fraud, including the Health Care Fraud Coordinator’s Conference for Civil and
Criminal AUSAs and Health Care Fraud for new AUSAs.

Criminal Prosecutions5

In FY 2005, the USAOs received 935 new criminal matters involving 1,597 defendants, and had
1,689 health care fraud criminal matters pending,6 involving 2,670 defendants. The USAOs filed
criminal charges in 382 cases involving 652 defendants, and obtained 523 federal health care
related convictions. USAOs receive referrals of criminal health care fraud cases from a wide
variety of sources, including the FBI, the HHS/OIG, state Medicaid Fraud Control Units, and
other federal, state, and local law enforcement agencies.




        5
          FY 2005 criminal data does not include data for the month of September 2005 for the
Eastern District of Louisiana due to Hurricane Katrina.
        6
          When a USAO accepts a criminal referral for consideration, the office opens it as a
matter pending in the district. A referral remains a matter until an indictment or information is
filed or it is declined for prosecution.
                                                32
Civil Matters7

The USAOs use affirmative civil enforcement litigation to recover monies wrongfully taken from
the Medicare Trust Fund and other taxpayer-funded health care systems, and to ensure that the
federal health care programs are fully compensated for the losses and damages resulting from
such thefts. The False Claims Act (FCA) is one of the most important tools the USAOs use for
these purposes. The FCA subjects those who knowingly present false claims for payment to the
government, including health care providers who submit claims to federal health care programs,
to treble damages and civil penalties.

USAOs receive civil health care fraud referrals from a variety of sources, including from the
federal investigative agencies that refer criminal cases, and by means of qui tam complaints.
Under the FCA, a qui tam plaintiff (known as a “relator”) must file his or her complaint under
seal in a United States District Court, and serve a copy of the complaint upon the USAO for that
judicial district, as well as the Attorney General. USAOs routinely assign civil AUSAs to every
qui tam case filed in their districts, as well as all matters referred by a law enforcement agency.
In FY 2005, the USAOs opened 778 new civil health care fraud matters (including qui tam
actions and matters referred by agencies) and had 1,334 civil health care fraud matters and cases
pending. In order to maximize resources, Civil Division attorneys may become actively involved
and participate with the USAOs in those qui tam cases that involve more than one district and
potential recoveries substantially over one million dollars. In addition to these joint cases,
USAOs are responsible in all other qui tam cases for investigating the relator’s allegations and,
where appropriate, litigating and/or settling the case. In FY 2005, USAOs filed or intervened in
266 civil health care fraud cases.


                                         Civil Division

In FY 2005, the Civil Division was allotted $15.459 million in HCFAC funds to support civil
health care fraud litigation (this amount includes $1 million allotted for the Nursing Home and
Elder Justice Initiative). Civil Division attorneys pursue civil remedies in health care fraud
matters, working closely with the USAOs, the FBI, the HHS/OIG and the Department of Defense,
CMS, and other federal and state law enforcement agencies. Cases involve providers of health
care services, supplies and equipment, as well as carriers and fiscal intermediaries, that defraud
Medicare, Medicaid, TRICARE, the Federal Employee Health Benefit Program (FEHBP), and
other government health care programs.

In FY 2005, the Division opened or filed a total of 306 health care fraud cases or matters. In
addition to these new efforts, the Civil Division pursued 642 existing cases or matters that
remained open at the end of FY 2004. Civil Division attorneys were actively involved in the
recoveries described in the consolidated case recovery overview.

        7
        FY 2005 civil data does not include data for the month of September 2005 for the
Eastern District of Louisiana due to Hurricane Katrina.
                                               33
In addition, the Civil Division provided in-depth, multi-day, training to AUSAs nationwide on the
FCA, including issues relating to the investigation and litigation of qui tam cases, and continued
to provide training to DOJ and HHS components on a regular basis.

Civil Division attorneys litigate a wide range of health care fraud matters, including cases
involving allegations of overcharging by hospitals, and other Medicare Part A institutional
providers; similar claims against suppliers of DME and other supplies under Part B of Medicare;
similar allegations involving state Medicaid programs; claims that doctors and others have been
paid kickbacks or other remuneration to induce referrals of Medicare or Medicaid patients, in
violation of the Anti-Kickback Act and Stark laws; claims of overpricing and illegal marketing of
pharmaceuticals by drug companies and related entities; and allegations that nursing homes have
failed to provide necessary care to elderly and vulnerable residents. Among these are multi-
district cases involving large health providers and suppliers that typically require coordination
among affected federal agencies, USAOs, state Medicaid Fraud Control Units and other state
agencies, and various investigative organizations.

The Civil Division continues to staff and provide a critical coordination function in the FCA
investigations alleging pharmaceutical pricing fraud against government health care programs.
These matters involve hundreds of manufacturers and related entities, span multiple districts and
present myriad legal and factual issues. Civil Division attorneys have spearheaded substantial
efforts to share information and evidence, as appropriate, with the USAOs and other components
of DOJ, as well as HHS components, including the FDA. In addition, close communication with
state Medicaid Fraud Control Units and Attorneys General is ongoing to ensure that federal and
state investigations and litigation are coordinated. Since 1999, eighteen cases involving
allegations of fraud by pharmaceutical manufacturers against federal health benefit programs in
the pricing or marketing of drugs have been settled by the Department for total criminal and civil
recoveries of $4.2 billion.

Civil Division attorneys, working with attorneys in the Criminal Division and EOUSA, have
played a critical role in coordinating and presenting the views of the Department of Justice to the
Centers for Medicare and Medicaid Services as that agency drafts implementing regulations for
the new Medicare prescription drug benefit passed as part of MMA. Civil Division attorneys also
played a critical role in coordinating and presenting DOJ's views to the HHS/OIG as it interpreted
and applied the Anti-Kickback Statute and Stark laws (prohibiting physician self-referral). In
addition, the Division worked with other components of DOJ to provide views on the Hospital
Compliance Program Guide published by the HHS/OIG.

In addition to these accomplishments, the Department’s Nursing Home and Elder Justice
Initiative, coordinated by the Civil Division, among other things, supports enhanced prosecution
and coordination at federal, state and local levels to fight abuse, neglect, and financial
exploitation of the nation’s elder and infirm population.



                                                34

Through this Initiative, the Department also makes grants, in coordination with the Office of
Justice Programs, to promote research, develop training curricula and materials, improve scarce
forensic knowledge, and enhance prevention, detection, intervention, investigation, and
prosecution of elder abuse.

The Department additionally continues to pursue cases relating to providers’ egregious failures to
provide required care, usually resulting in harm, suffering, and sometimes death of those for
whom the care was intended.

Civil Division attorneys continue to provide guidance and training to government attorneys in
numerous subject matters, including to assure the Department's continued compliance with the
Health and Human Services Standards for Privacy of Individually Identifiable Health
Information, commonly known as the HIPAA privacy rule. Also, the Civil Division continues to
co-chair with the Criminal Division the National Level Health Care Fraud Working Group to
coordinate the health care fraud enforcement activities of all concerned federal and state agencies.



                                      Criminal Division

The Criminal Division was allocated $1.58 million in HCFAC funds to support criminal health
care fraud litigation, prevention and interagency coordination in FY 2005. The Fraud Section of
the Criminal Division develops and implements white collar crime policy and provides support
for the federal white collar enforcement community, which includes the Division’s health care
fraud and abuse responsibilities. Since the inception of the HCFAC program, a major focus of the
Fraud Section has been to investigate and prosecute fraud in federal health care programs and the
nation’s health care delivery system. The Fraud Section is responsible for handling and
coordinating complex health care fraud litigation nationwide. The Fraud Section also supports
the USAOs with legal and investigative guidance and, in certain instances, provides trial attorneys
to prosecute criminal fraud cases.

In FY 2005, the Fraud Section provided guidance to FBI agents, AUSAs and Criminal Division
attorneys on criminal, civil and administrative tools to combat health care fraud, and worked on
an interagency level through:

•	     coordinating large scale multi-district health care fraud investigations;

•	     providing frequent advice and written materials on confidentiality and disclosure issues
       arising in the course of investigations and legal proceedings regarding medical records;
       including HIPAA medical privacy requirements, compliance with the Substance Abuse
       Patient Medical Records Privacy Act and regulations, and coordinating referrals from the
       Department of Health and Human Services Office of Civil Rights of possible criminal
       violations of the HIPAA privacy statute;

                                                35

•	     monitoring and coordinating Departmental responses to major regulatory initiatives,
       legislative proposals, and enforcement policy matters related to prevention, deterrence and
       punishment of health care fraud and abuse;

•	     reviewing and commenting on numerous requests for advisory opinions submitted by
       health care providers to the HHS/OIG, and consulting with the HHS/OIG on draft
       advisory opinions per the requirements of HIPAA;

•	     working with USAOs and CMS to improve Medicare contractors’ fraud detection and
       case development work;

•	     preparing and distributing to all USAOs and FBI field offices periodic updates on major
       issues, interagency initiatives, and significant activities of DOJ’s health care fraud
       component organizations as well as periodic summaries of recent cases; and

•	     organizing and overseeing, in conjunction with the Civil Division, the National Level
       Health Care Fraud Working Group to address fraud in health care and managed care, as
       well as other interagency working groups formed to address specific cases and initiatives.

•	     During FY 2005, Fraud Section staff, along with representatives from the Civil Division
       and the USAOs, participated extensively in final interagency planning and rule-making
       efforts necessitated by the revision or expansion of several key government health care
       programs, including planning for the roll-out of the Medicare Part D prescription drug
       benefit program. The Fraud Section reviewed and commented on draft regulations for:
       the Medicare Part D program; the MMA-mandated revisions to the Medicare Advantage
       program; the new Retiree Drug Subsidy program; and a new electronic prescribing
       initiative and program (which included proposed “safe harbor” provisions for electronic
       prescribing).

The Fraud Section also collaborated with HHS/OIG and CMS officials to develop guidance,
manuals, and procedures to prevent, detect, and report fraud and abuse in the Medicare
prescription drug program; and to train prosecutors, investigative agents and support personnel on
the provisions of the Medicare prescription drug program and on possible fraud schemes which
might materialize once the program is operational.

The Fraud Section, along with the EOUSA health care fraud coordinator, staffed an interagency
project sponsored by the ONC whose final report specified guiding principles and
recommendations for integrating anti-fraud and evidentiary control measures into emerging
electronic health record and health information technology. 8




        8
         See ONC-sponsored report on anti-fraud activities and health information technology at:
 http://www.hhs.gov/healthit/hithca.html.
                                             36
In FY 2005, the Fraud Section handled or was involved in investigations of hospitals, vocational
rehabilitation and healthcare management services, and other health care-related entities. Along
with the USAO for the Southern District of Mississippi, Fraud Section attorneys prosecuted
fourteen individuals who participated in a scheme to create bogus prescription histories and file
fraudulent claims against a $400 million settlement fund established by the manufacturer of the
diet drugs Redux and Pondimin, commonly known as “Fen-Phen,” for medical injuries caused by
the inappropriate prescription of these products. As of September 30, 2005, a total of 17
defendants were convicted in this multi-year ongoing joint investigation.


                                      Civil Rights Division

In FY 2005, the Civil Rights Division was allocated $1.98 million in HCFAC funds to support
Civil Rights Division litigation activities related to health care fraud. The Civil Rights Division
pursues relief affecting public, residential health care facilities. The Division has also established
an initiative to carry out the Department’s goals to eliminate abuse and grossly substandard care
in Medicare and Medicaid funded nursing homes and other long-term care facilities.

The Division plays a critical role in the HCFAC program. The Special Litigation Section of the
Civil Rights Division is the sole Department component responsible for the Civil Rights of
Institutionalized Persons Act, 42 U.S.C. § 1997 (CRIPA). CRIPA authorizes investigation of
conditions of confinement at state and local residential institutions (including facilities for
persons with developmental disabilities or mental illness, and nursing homes) and initiation of
civil action for injunctive relief to remedy a pattern or practice of violations of the Constitution or
federal statutory rights. The review of conditions in facilities for persons who have mental
illness, facilities for persons with developmental disabilities, and nursing homes comprises a
significant portion of the program. The Special Litigation Section works collaboratively with the
USAOs around the country and with HHS.

Fiscal Year 2005 Accomplishments

As part of the Department’s Institutional Health Care Abuse and Neglect Initiative, and as an
enhancement to the Department’s ongoing CRIPA enforcement efforts, the Special Litigation
Section staff reviewed conditions and services at 44 health care facilities in 22 states during the
fiscal year. The task in preliminary inquiries is to determine whether there is sufficient
information supporting allegations of unlawful conditions to warrant formal investigation under
CRIPA. The Section reviews information pertaining to areas such as abuse and neglect, medical
and mental health care, use of restraints, fire and environmental safety, and placement in the most
integrated setting appropriate to individual needs.

The Section found that conditions and practices at two state-operated facilities for persons with
mental illness and one state-operated facility for persons with developmental disabilities violate
the residents' federal constitutional and statutory rights. Those facilities are: Napa State Hospital
in Napa, California, the Vermont State Hospital in Waterbury, Vermont, and the Woodbridge
Developmental Center in Woodbridge, New Jersey.

                                                  37

The Section entered settlement agreements to resolve its investigations of two publicly-operated
nursing homes and two state-operated facilities for persons with developmental disabilities.
Those facilities were: Nashville Metropolitan Bordeaux Hospital in Nashville, Tennessee, the
Mercer County Geriatric Center in Trenton, New Jersey, the Glenwood Developmental Center in
Glenwood, Iowa and the Woodward Developmental Center in Woodward, Iowa.

The Section continued its investigations of the following residential facilities for persons with
developmental disabilities: Agnews, Sonoma, and Lanterman Developmental Centers in
California; Holly Center in Maryland; Fort Wayne Developmental Center in Indiana; Rainier
Residential Rehabilitation Center and Frances Haddon Morgan Centers in Washington; Conway
Developmental Center in Arkansas; Lubbock State School in Texas; and Bellefontaine
Developmental Center in Missouri.

In addition, the Section continued its investigations of the following residential facilities for
persons with mental illness: Metropolitan State Hospital in California; Broughton, Cherry,
Dorothea Dix, and John Umstead Hospitals in North Carolina; and St. Elisabeth’s Hospital in the
District of Columbia.

Finally, the Section continued its investigations of the following publicly-operated nursing
homes: A. Holly Patterson Nursing Home on Long Island, New York; the Charlotte Hall
Veterans Home in Maryland; and the Laguna Honda Hospital and Rehabilitation Center in San
Francisco, California. In many of these investigations, negotiations toward settlement are
continuing regarding the correction of the remaining deficient conditions. In some of these
matters, the Section is reviewing voluntary compliance to improve conditions.

In addition to its law enforcement activities regarding health care fraud activities, the Special
Litigation Section is responsible for representing the Department and the Civil Rights Division on
an inter-agency committee on elder care issues. The Section has also participated in public
education and outreach by speaking and participating at conferences on quality of care in health
care facilities.




                                                38

                                     APPENDIX

                              Federal Bureau of Investigation

                                   Mandatory Funding

       “There are hereby appropriated from the general fund of the United States Treasury and
       hereby appropriated to the Account for transfer to the Federal Bureau of Investigation to
       carry out the purpose described in subparagraph (C), to be available without further
       appropriation - (I) for fiscal year 2005, $114,000,000.”

        In FY 2005, the FBI was allocated $114 million in HCFAC funds for health care fraud
enforcement. This yearly appropriation was used to support 806 positions (466 Agent, 340
Support) in FY 2005, a decrease of 19 positions from the positions supported in FY 2004 (13
Agent, 6 Support). The FY 2005 funding did not allow for cost of living increases, necessitating
reductions in funded staffing levels. The number of pending investigations has shown steady
increase from 591 cases in 1992 to 2,547 cases through FY 2005. FBI-led investigations resulted
in 500 criminal health care fraud convictions and 589 indictments and informations being filed in
state and federal courts in FY 2005.

        The FBI is the primary investigative agency involved in the fight against health care fraud
that has jurisdiction over both the federal and private insurance programs. With health care
expenditures rising at three times the rate of inflation, it is especially important to coordinate all
investigative efforts to combat fraud within the health care system. More than $1 trillion is spent
in the private sector on health care and its related services and the FBI's efforts are crucial to the
overall success of the program. The FBI leverages its resources in both the private and public
arenas through investigative partnerships with agencies such as the HHS/OIG, the FDA, the Drug
Enforcement Administration, the Defense Criminal Investigative Service, the Office of Personnel
Management, the Internal Revenue Service and various state and local agencies. On the private
side, the FBI is actively involved with national groups, such as the National Health Care
Anti-Fraud Association (NHCAA), the Blue Cross and Blue Shield Association and the Coalition
Against Insurance Fraud, as well as many other professional and fundamental efforts to expose
and investigate fraud within the system.

        Health care fraud investigations are considered a priority within the White Collar Crime
Program Plan. In addition to being a partner in the majority of investigations listed in the body of
this report, the FBI launched the "Outpatient Surgery Center Initiative" to combat the growing
problem of fraudulent surgeries performed at certain outpatient surgery centers located in the
Southern California area. This nationwide scheme has drawn participants from 48 of the 50 states
who have traveled to California to have unnecessary surgery in exchange for a cash kickback or
plastic surgery, and has resulted in billings to the insurance companies in excess of $750 million,
as reported in the Annual Heath Care Fraud and Abuse Control Program Report for FY 2004.
The FBI partnered with the NHCAA to collect intelligence on the problem, and launched a
nationwide initiative. To date, there are pending outpatient surgery center investigations in
eleven field offices with more than 60 subjects identified.



                                                  39

        The majority of funding received by the FBI is used to pay personnel costs associated with
the 806 funded positions. Funds not used directly for personnel matters are used to provide
operational support for major health care fraud investigations and national investigations
currently focusing on pharmaceutical fraud and outpatient surgery centers. Further, the FBI
continues to support individual investigative needs such as the purchase of specialized equipment
and expert witness testimony on an as-needed basis.




                                               40

                                Glossary Of Terms
The Account - The Health Care Fraud and Abuse Control Account

AoA - Department of Health and Human Services, Administration on Aging

AUSA - Assistant United States Attorney

CEO - Chief Executive Officer

CERT - Comprehensive Error Rate Testing Program

CIA - Corporate Integrity Agreement

CMP - Civil Monetary Penalty

CMS - Department of Health and Human Services, Centers for Medicare & Medicaid Services

CMHC - Community Mental Health Center of East Central Georgia

CNA - Certified Nurse Aide

CPT - Current Procedural Terminology

CRIPA - Civil Rights of Institutionalized Persons Act

DME - Durable Medical Equipment

DOJ - The Department of Justice

DRG - Diagnosis Related Group

DSH - Disproportionate Share Hospital

EOUSA - Executive Office for the United States Attorneys

FBI - Federal Bureau of Investigation

FCA - False Claims Act

FDA - Food and Drug Administration

FEHBP - Federal Employees Health Benefits Program

FFS - Fee -for -service

FUL - Federal Upper Limt

GPO - Group Purchasing Organization

HCFAC - -Health Care Fraud and Abuse Control Program or the Program

HHS - The Department of Health and Human Services

HHS/OIG - The Department of Health and Human Services - Office of the Inspector General

HI - Hospital Insurance Trust Fund

HIPAA, or the Act - The Health Insurance Portability and Accountability Act of 1996, P.L. 104-191

                                                  41

HIV - Human Immunodeficiency Virus

HPMP - Hospital Payment Monitoring Project

Medi-Medi - Medicare/Medicaid Data Matching Program

MMA - Medicare Prescription Drug, Improvement and Modernization Act of 2003

NHCAA - National Health Care Anti-Fraud Association

OGC - The Department of Health and Human Services, Office of the General Counsel

OLE - Office of Legal Education, located within the Executive Office for the United States Attorneys

ONC - Office of the National Coordinator for Health Information Technology

PERM - Program Error Rate Measurement

The Program - The Health Care Fraud and Abuse Control Program

SCHIP - State Children’s Health Insurance Plan

Secretary - The Secretary of the Department of Health and Human Services

SMP - Senior Medicare Patrol

UPL - Upper Payment Limit

USAO - United States Attorney’s Office




                                                  42

